         CORPORATION

         FOR NATIONAL




OFFICE OF THE INSPECTOR GENERAL




    Semiannual Report to the Congress

    April 1, 1995 - September 30, 1995
                                                                                            CORPORATION

October 3 1, 1995                                                                           FOR N A T I O N A L


Harris Wofford
Chief Executive Officer
Corporation for National
and Community Service
1201 New York Avenue, NW
Washington, DC 20525

Dear Senator Wofford,

Enclosed is the Office of Inspector General Semiannual Report for the six-month period ending
September 30, 1995. For my office, this period marked the first implementation of a new
approach toward our audit work, as well as a concerted effort to work with CNS management to
prevent fraud, waste and abuse in our Corporation's operations and programs.

This report features summaries of several significant projects. Foremost among them are the
audit and investigation of ACORN Housing Corporation, which culminated in testimony by CNS
management and the OIG before Congress. That testimony reflected a cooperative approach to
assess and terminate a grant in which Federal dollars were misused. Our other audits and
investigations underscore our goal to provide cooperative and responsible oversight of CNS' and
our grantees' operations.

In pursuit of that goal, we continued to visit CNS grantees to review their accounting and Federal
reporting systems for newly awarded grants. We began these reviews in the belief that it is more
effective to assess the vulnerability of grantee systems, and prevent the loss of Federal funds, than
to try to recover misspent funds after a grant has been terminated. Overall, the reviews have
supported the premise that those of our grantees who have had experience with Federal funding,
and have a history of audit under Federal requirements, are not likely to have significant problems
in their accounting and reporting for grants. Nonetheless, in many of the reviews, we found
issues that could be resolved to improve grantee financial reporting as well as other matters to be
considered in program oversight activities. Overall, we have concluded that, in the absence of
pre-award assessments of grantee accounting systems and Federal reporting compliance, the
reviews are an important risk assessment mechanism. Management appears to concur since more
than ten reviews currently in progress were requested by CNS program officials.

                                                                                            1201 New York Avenue. NW
                                                                                            Washingfon. M: 20525
                                                                                            Telephone 202-606-5000




                                                                                            Getting Things Done.
                                                                                            Amencorps, Nar~onalServlce
                                                                                            Learn and Serve Arnenca
                                                                                            Nat~onalSenior Service Corps
Presently, perfomlance measures for Inspectors Generals are a subject of debate, and there is no
consensus on how to measure our effectiveness. I have included, as a final section of this report,
a summary of our accomplislments and expenditures for the fiscal year. I am proud of our
efforts and accomplislments during our first full year of operations as part of CNS.

As you are aware, the Inspector General Act of 1978, as amended, requires that you submit this
report, along with any comments you may wish to make, and other statistical tables and reports
required by the law, to the Congress within 30 days. In addition, the Act requires that you submit
this report, with your comments and the other required information, to CNS' Board of Directors
no later than the date on which you submit the report to the Congress.

Yours truly,



Luise S. Jordan
Inspector General
OFFICE OF INSPECTOR GENERAL




  Semiannual Report to the Congress

 April 1, 1995 - September 30, 1995
     CORPORATION FOR NATIONAL SERVICE
            OFFICE OF INSPECTOR GENERAL

      SEMIANNUAL REPORT TO THE CONGRESS




                     TABLE OF CONTENTS

INTRODUCTION     .................................... 3

AUDITING ACTIVITIES   ............................... 3
INVESTIGATIONS    ................................... 6
     Statistical Summary of Investigations   .................. 8
REVIEW OF LEGISLATIONAM) REGULATIONS               ............ 9
                     SEMIANNUAL REPORT TO THE CONGRESS

                          TABLE OF CONTENTS - (Continued)
TABLE I         --    INSPECTOR GENERAL ISSUED REPORTS WITH
                      QUESTIONED COSTS FOR THE SIX-MONTH PERIOD
                      ENDING SEPTEMBER 30, 1995......................................... 10

TABLE I1        --    INSPECTOR GENERAL ISSUED REPORTS WITH
                      RECOMMENDATIONS THAT FUNDS BE PUT
                      TO BETTER USE FOR THE SIX-MONTH PERIOD
                      ENDING SEPTEMBER 30, 1995 ....................................... 11

TABLE I11       --    AUDIT REPORTS ISSUED DURING THE PERIOD
                      APRIL 1, 1995 - SEPTEMBER 30, 1995.............................. 12

TABLE IV        --    SUMMARY OF AUDITS WITH OVERDUE
                      MANAGEMENT DECISIONS.. ........................................             14


INDEX TO REPORTING REQUIREMENTS OF THE
INSPECTOR GENERAL ACT.. ................................................................          15

SUMMARY REPORT OF ACCOMPLISHMENTS FOR
FISCAL YEAR 1995. .............................................................................   17
                                     INTRODUCTION

The Corporation for National and Community Service was created under the National and
Community Service Trust Act of 1993. Through several programs, the Corporation for
National Service offers Americans of all ages and backgrounds the opportunity to participate
in community-based service programs. These programs include ArneriCorps State and National
Direct grants, VISTA, the National Civilian Community Corps, Learn and Serve America, and
the Senior Volunteer Program. The Corporation also oversees those continuing activities
initiated by two predecessor agencies, the Commission for National and Community Service
and ACTION.

                                AUDITING ACTIVITIES

Annual Financial Statement Audit

Under the Government Corporation Control Act, the OIG is responsible for the audit of
CNS' financial statements. To meet our responsibilities under the Act we contracted with
Williams, Adley & Company and Arthur Andersen & Company to perform a financial audit
of the Corporation's fiscal year 1994 financial statements. The contractors began the audit
in June 1995, and are in the process of documenting and assessing the Corporation's internal
control structure, and determining the auditability of the financial statements that have been
completed. The OIG is also providing staff and techmcal support for the Corporation's effort
to reconcile its cash accounts.

Grant Audits

The OIG issued four audit reports on grants during this period. The most significant of these
were on ACORN Housing, City Year of Boston, and the Delta Service Corps. Additionally,
to supplement the OIG's audit resources, we established interagency agreements with the
Department of State Inspector General and Department of Labor Inspector General to use
their contracted CPA firms to conduct audits and other reviews of Corporation grantees when
needed. Under these agreements we contracted for closeout audits of five grants awarded
by the former Commission on National and Community Service and two grants awarded by
CNS. We also contracted for a final audit for the terminated grant to ACORN Housing
Corporation. These audits will be completed during the next reporting period.

ACORN Housing Corporation. The Corporation requested that we examine certain activities
and financial records regarding the CNS ArneriCorps grant to ACORN Housing Corporation
(AHC). Although we found no evidence that ArneriCorps Members participated in the
March 6 demonstration sponsored by the Association of Community Organizations for
Reform Now (ACORN), the scope of our work in this area was impeded, because AHC
placed conditions on our interviews that limited our ability to develop reliable information.
We determined that AHC and ACORN are separate corporate entities, but that they do not
always operate at "arms length." Finally, we questioned approximately $95 thousand of
costs charged to the grant because the documentation and information to support the costs
was inadequate to establish that they were allowable under the grant and applicable
regulations. CNS terminated the grant because evidence obtained in a separate OIG
investigation (see page 6) indicated that AHC violated the National and Community Service
Act, as amended, CNS Regulations and policies as well as the grant agreement. As discussed
above, we have contracted for a final closeout audit of this grant to determine whether
additional costs should be questioned.

CiQ Year of Boston. Our audit found that City Year's reported accomplishments accurately
reflect their activities and that City Year's internal evaluations fostered program
improvement. However, we also found that fiscal oversight of City Year requires
improvement, and that during fiscal years 1993 and 1994, City Year's accounting system and
financial management controls did not meet Federal standards. These conditions were first
detected during the audit of City Year's 1993 financial statement by KPMG Peat Marwick,
City Year's independent auditing firm.

A joint OIG and Corporation management team made audit follow-up visits in January and
September 1995 to assess City Year's progress in correcting the deficiencies reported in the
audits. Our reviews revealed that City Year has made significant progress in installing a new
financial management system and in correcting many of the deficiencies reported. Our report
on City Year discusses conditions and issues found in our audit, and recommends additional
actions needed to improve financial oversight and to resolve issues relating to the
reprogramming of unused education benefits.

Delta Service Corps. Our audit disclosed that the Arkansas Division of Volunteerism
adequately monitored the grant and related subrecipient activities. However, we noted
weaknesses in Delta Service Corps' financial reporting and its system of internal controls.
Specifically, Delta Service Corps did not submit timely Financial Status Reports nor record
costs (or maintain accounting records and other detail) related to the non-Federal financial
activity associated with the grant.

Additionally, Delta Service Corps drew down over $800 thousand in excess of its reported
expenditures in violation of the grant award and Federal cash management policies. These
funds are primarily related to Delta Service Corps' accrued liability for post service
education benefits. However, Delta Service Corps does not need to draw down amounts for
the accrued liability. First, it is unclear as to how many post service education benefit claims
will actually be made. Further, in the case of this grant, participants can make claims for
education benefits over a six-year period. We recommended the CNS take action to
immediately recover all excess Federal cash held by Delta Service Corps.

Reviews

In January, we initiated efforts to assess AmeriCorps grantees' management controls and
procedures to determine these organizations' ability to comply with Federal fiscal accounting
and reporting requirements and to safeguard related funds. We issued final reports on five
such reviews and draft reports on two during this period. Four reviews were in process at
September 30, 1995.

During the period we also contracted for 13 reviews under our agreements with the
Departments of State and Labor. These reviews will be completed during the next reporting
period.
 As illustrated below, the reviews have revealed issues in several areas. We have
 recommended corrective actions and brought the issues to the Corporation's attention for
 resolution.

                                          Initial Reviews Performed

                                                                                 Issues Related to

                                                     Grant             Mgmt.           Federal                   Report
                 Grantee                            Amount*           Controls        Reporting      Other       Status

National Association of Child
Care Resource and Referral                     $5,873,218                J                            J         Issued
Agencies
Magic Me                                             734,401                                          d         Issued
Public Education Fund Network                        701,167             J                                      Issued
Neighborhood Green Corps                             805,000             4                                      Issued
Association of Farmworkers
Opportunity Programs                               1,120,441             J                                      Issued
Local Initiatives, Inc.                              998,247             J                                       Draft
Woodrow Wilson National
Fellowshiu Foundation                              1.503.206             d                J           J          Draft

* $ 5,298,482 of the grant amount reported for NACCRR relates to child care benefits administered for all AmeriCorps
programs. The amounts reported for other grants do not include child care or post-service education benefits.




 Single Audit Act Reports

 The Single Audit Act and related OMB Circulars require state and local governments,
 nonprofit organizations, and institutions of higher education to provide annual or biennial
 audit reports to government agencies responsible for their Federal funding. During this
 period, the OIG processed 329 such reports. Of that total, four contained findings relevant
 to Corporation programs.
                                    INVESTIGATIONS

We began this reporting period with five previously-opened investigative actions. During the
reporting period we opened twenty new investigative actions and closed nine. We had
sixteen investigative actions pending at the end of this reporting period.

The following highlight our investigative activity during this reporting period:

Alleged Violation of Grant Provisions - Grant subsequently Terminated

We completed an investigation, opened subsequent to receipt of a Hotline complaint from a
former AmeriCorps Member, where we found evidence that ACORN Housing Corporation
(AHC), a Corporation grantee, violated the provisions of the National and Community
Service Act, as amended, Corporation for National and Community Service regulations, and
the AmeriCorps grant agreement prohibiting AHC from using ArneriCorps positions to
benefit advocacy organizations. Our investigation determined that AHC directed, condoned
and allowed the use of some of its AmeriCorps Members as conduits for recruiting new
Association of Community Organizations for Reform Now (ACORN) members, thereby
providing a direct benefit to ACORN, an organization that engages in substantial advocacy
activities. Moreover, the evidence indicated that this practice was not limited to just one
AHC office. In two cities where AHC had AmeriCorps loan counselors co-located with
ACORN recruiters, there was evidence that specific pressure was placed on AmeriCorps
Members to assist in recruiting new ACORN members. Further, AmeriCorps Members in
a thud city (where there were no ACORN recruiters) specifically recalled being told in AHC
training sessions that they should tell prospective clients about ACORN'S goals and activities.

Based upon the findings of our investigation, the Corporation suspended and proposed to
terminate the grant to AHC. After the Corporation reviewed AHC's response to the
proposed termination, the Corporation and AHC mutually agreed to terminate the grant.

Alleged False Statement - Prosecution Declined - Referred to Management

We completed an investigation into an allegation that an employee at one of the Corporation's
state offices falsified his Confidential Financial Disclosure Report form (SF 450) by not
reporting his outside employment. Our investigation disclosed evidence to support the
allegation and the matter was referred to the cognizant U.S. Attorney's office for
prosecutorial review. The U. S. Attorney's office declined criminal prosecution and we
referred the incident to the Corporation for whatever action they deem appropriate. The
investigation is pending management's response as to the course of action they intend to
pursue.

Building Security - Thefts of Corporation Property

We completed our efforts in support of the Federal Protective Service's (FPS) investigation
into several thefts of Corporation and personal property from the Corporation office space.
Due to the circumstances surrounding the thefts, namely that the items stolen were not
secured in any manner, and in most cases were left out in plain view, the FPS was unable to
develop any investigative leads that would assist in identifying the perpetrators or aid in
recovering the stolen property. Their investigation was ultimately placed in an inactive status
for lack of investigative leads.

The FPS provided the Corporation a comprehensive Physical Security Survey that included
several recommendations designed to enhance security within the Corporation's work space.
Of the thirteen recommendations made by the FPS, the Corporation adopted two and plans
to adopt a third during fiscal year 1996. While the frequency of the thefts appears to have
decreased, during one recent two-day period Corporation property (a camera, a notebook
computer, and cellular telephones) valued at approximately $5000 was stolen from
Corporation work spaces. We are presently conducting a follow-up inquiry into the
circumstances surrounding these recent thefts.

Postal Violations - Referred

We completed a preliminary inquiry into allegations of various postal violations by a former
VISTA volunteer and, upon determining the matter was outside the purview of the OIG,
provided our findings to the U.S. Postal Inspection Service for whatever action they deem
appropriate.

Other Complaints

We closed five actions after our preliminary inquiry determined they lacked sufficient merit
to warrant further investigation. We referred an additional matter to Corporation program
management after determining the allegations were not within the purview of the OIG.
                  Statistical Summary of Investigations


Opened and Closed

Number of Cases Open at Beginning of Reporting Period .............. 5

Number of New Cases Opened During This Reporting Period.. ..... .20

Number of Cases Closed During This Period With
Significant Findings.. .......................................................... 3

Number of Cases Closed During This Period With
No Significant Findings.. ..................................................... 6

Total Cases Closed This Reporting Period.. .............................. 9

Number of Cases Open at End of Reporting Period. ................... 16

Referred

Number of Cases Referred for Prosecution During
This Reporting Period.. ....................................................... 1

Number of Cases Accepted for Prosecution During
This Reporting Period.. ....................................................... 0

Number of Cases Declined for Prosecution During
This Reporting Period.. ....................................................... 1

Number of Cases Pending Prosecution Review.. ......................... 0
                 REVIEW OF LEGISLATION AND REGULATIONS

Under Section 4(a)(2) of the Inspector General Act, the Office of the Inspector General has the
responsibility to review existing or proposed legislation and regulations relating to the
Corporation's programs and operations. Based on that review, the OIG is then to make
recommendations in its Semiannual Reports concerning the impact of the legislation and
regulations on the economy and efficiency in the administration of programs and operations
administered or financed by the Corporation. The OIG is also to make recommendations in its
Semiannual Reports concerning the prevention and detection of fraud and abuse in programs
and operations administered or financed by the Corporation.

During this reporting period, the OIG reviewed proposed regulations on the solicitation and
acceptance of donated property and services by the Corporation. We offered informal
comments to the Corporation on the proposed regulations, and we have no specific
recommendations to make at this time. During this reporting period, the Corporation began an
assessment of its authorizing statutes.

The National and Community Service Trust Act of 1993 currently authorizes appropriations for
most of the Corporation's programs and operations through fiscal year 1996. In preparation for
the legislative process of reauthorizing the Corporation's programs, Corporation officials have
begun to consider how Congress could amend the Corporation's authorizing legislation. OIG
will monitor this process, and will make recommendations both to Corporation management
and the Congress in future Semiannual Reports and otherwise.
                                      TABLE I

INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS
    FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30,1995

                                       Number           Dollar Value
                                                Questioned      Unsupported
                                                  Costs            Costs
                                                       (In thousands)
     For which no management
     decision has been made by the
     commencement of the
     reporting period

     Which were issued during the
     reporting period

     Subtotals (1 plus 2)



     For which a management
     decision was made during the
     reporting period
     (I) dollar value of disallowed
         costs

     (ii) dollar value of costs not
          disallowed

     For which no management
     decision has been made by the
     end of the reporting period
     (3 minus 4)


     Reports for which no
     management decision was
     made within six months of
     issuance
                                        TABLE I1

INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS
             THAT FUNDS BE PUT TO BETTER USE
    FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30,1995

                                                   Number   Dollar Value


A   For which no management decision has
    been made by the commencement of the
    reporting period
B   Which were issued during the reporting
    period

C   For which a management decision was
    made during the reporting period

    (i)    dollar value of recommendations that
           were agreed to by management

           - based on proposed
             management action

           - based on proposed
             legislative action

    (ii)   dollar value of recommendations that
           were not agreed to by management
D   For which no management decision has
    been made by the end of the reporting
    period

    Reports for which no management decision
    was made during six months of issuance
                                                      TABLE I11


                  REPORTS ISSUED DURING THE PERIOD APRIL 1, 1995 - SEPTEMBER 30,1995



                                                              Federal            Federal
                                                              Dollars            Dollars
         Audit                                             Questioned        Unsupported
Report   Report
Number   Date         Name of Grantee                             (In $ Thousands)          City          State
95-01    05/08/95     National Association of Child                                         Washington
                      Care & Resource Referral
                      Agencies
95-02    0813 1/95    Commonwealth of Massachusetts                                         Boston
                      City Year of Boston
95-03    09/29/95     Arkansas Div. of Volunteerism                                         Little Rock
                      Delta Service Corps
95-04    04/24/95     American Institute of Public                                   $ 82   New Castle
                      Service
95-07    05/26/95     Magic Me, Inc.                                                        Baltimore
95-09    0813 1/95    Public Education Fund Network                                         Washington

95-10    09/29/95     Neighborhood Green Corps                                              Boston
                                                     Federal          Federal
                                                     Dollars          Dollars
         Audit                                    Questioned      Unsupported
Report   Report
Number   Date     Name of Grantee                      (In $ Thousands)         City         State
95-1 1            Association of Farmworkers                                    Arlington    VA
                  Opportunity Programs
95-15             Truth or Consequences Housing                           17    Truth or     NM
                  Authority                                                     Conseq.
95-16             Multi-County Community Action                                 Charleston   WVA
                  Against Poverty, Inc
95-17             ACORN Housing Corporation                                     Chicago      IL
95-20             TRI City Opportunity Council                                  Rockfalls    IL
95-23             American Association of                                       Washington   DC
                  Community Colleges
95-26             Community Action Program of             2                     Pendleton    OR
                  East Central Oregon
95-27             Commonwealth of Kentucky               -1                     Frankfort    KY


Total
                                            TABLE IV

              SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS


                                                    Federal
                                       Federal      Dollars             Management
Report                                 Dollars       Non-                Decision
Number   Name of Grantee              Questioned   supported   Status    Due Date
         Senior Service Corps, Inc.    $ 614             0     RPT       09/29/94
         Senior Service Corps, Inc.       87 1           0     RPT       09/29/94
         Senior Service Corps, Inc.       242            0     RPT       09/29/94
         Senior Service Corps, Inc.     7,181            0     RPT       09/29/94

         Portland Youth Service             0            0     RPT       1 1 104194
         Corps
         Youth Volunteer Corps of
         America                                         0     RPT       1 1129194
         Public Allies                                   0     RPT       12119/94
  INDEX TO REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL


IG Act Reference1                Reporting Requirement                        Page
Section 4 (a)(2)                 Review of Legislation and
                                 Regulations.

Section 5 (a)(l)                 Significant problems, abuses, and
                                 deficiencies.
Section 5 (a)(2)                 Recommendations with respect to
                                 significant problems, abuses, and
                                 deficiencies.
Section 5 (a)(3)                 Prior significant recommendations
                                 on which corrective action has not
                                 been completed.
Section 5 (a)(4)                 Matters referred to prosecutive
                                 authorities.
Section 5 (a)(5'                 Summary of instances where
                                 information was refused
Section 5 (a)(6                  List of audit reports by subject
                                 matter showing dollar value of
                                 questioned costs and
                                 recommendations that funds be put
                                 to better use.
Section 5 (a)(7)                 Summary of each particularly
                                 significant report.


Section 5 (a)(8)                 Statistical table showing number of
                                 reports and dollar value of
                                 questioned costs
Section 5 (a)(9)                 Statistical table showing number of
                                 reports and dollar value of
                                 recommendations that funds be put
                                 to better us.


      'Refers to sections in the Inspector General Act of 1978, as amended.
IG Act Reference     Reporting Requirement                 Page
Section 5 (a)(10)    Summary of each audit issued before
                     this reporting period for which no
                     management decision was made by
                     end of reporting period.
Section 5 (a)(l 1)   Significant revised management
                     decisions.
Section 5 (a)(12)    Significant management decisions
                     with which the Inspector General
                     disagrees.
Resources provided:

Our FY 1995 appropriation was $2 million. The Summary of Obligations and Expenditures (page 22) reports
how we spent our budgeted funds.

The OIG was allowed a staff level of 13 FTEs. W e operated with a n average of less than 12 FTEs during the
year due to turnover and inability to fill an open position toward the end of the fiscal year. Our inability to fill
the open position was due to uncertainty regarding the continued existence of CNS and its OIG. During the
year, we performed our work with eight auditors, two investigators, and two administrative staff.

What we accomplished vis a vis what we proposed to do:

In requesting its FY 1995 budget, the OIG indicated it would use its appropriation for activities in several areas.
The table below presents our accomplishments in those areas.



      Proposed in                                                                                     Questioned
 FY 1995 Budget Request                                 Accomplished                                    Costs

   Audit CNS' financial        The OIG contracted with Williams, Adley & Co. and Arthur
   statements as required by   Anderson LLP to perform the audit of CNS FY 1994 financial
   the Government              statements. At 9130195, neither the financial statements nor the
   Corporation Control Act.    audit had been completed.



   Provide oversight of        CNS has not completed its management controls assessments. We
   CNS' management             have emphasized the need for completing them and worked with
   controls assessment         CNS suggesting methodologies and techniques for assessing risk
   process.                    and documenting control techniques. Our contract for the
                               financial statement audit provides for the audit firms to document
                               as well as test financial control systems. This information is to be
                               given to CNS for use in its management control assessment
                               process.

   Conduct operational         OIG staff performed pre-audit surveys of CNS' procurement and
   audits of CNS operations    grants process. The surveys found several areas which warranted
   to provide management       corrective actions in both management controls and efficiencies.
   useful information for      The reports, which remain in draft form pending conclusion of the
   streamlining operations.    FY 1994 financial statement audit, include recommendations for
                               improving management controls and the operations themselves. As
                               a follow-on to the procurement review, OIG is taking the lead on
                               a project to "re-engineer" the procurement process.
     Proposed in                                                                                          Questioned
FY 1995 Budget Request                                     Accomplished                                     Costs


 Review grantees and sub-        Believing that it can be more effective to assess the vulnerability
 recipients receiving large      of grantee systems and prevent the loss of Federal funds, rather
 Corporation grants or those     than trying to recover misspent funds after the fact, we reviewed
 determined to be of high        grantee accounting and Federal reporting systems for a number of
 risk to determine the           newly awarded CNS grants. Overall, the reviews have supported
 adequacy         of     their   the premise that those of our grantees who have had experience
 accounting controls; e.g.       with Federal funding, and have a history of audit under Federal
 their ability to comply with    requirements, are not likely to have significant problems in their
 CNS & Federal reporting         accounting and reporting for grants. Nonetheless, in most of the
 and other requirements.         reviews, we found financial issues that could be resolved to
                                 improve grantee financial reporting. In each case, we brought
                                 these financial issues or other matters to the attention of CNS
                                 grants management, to be considered in CNS oversight activities.
                                 Overall, we have concluded that, in the absence of pre-award
                                 assessments of grantee accounting systems and Federal reporting
                                 compliance, the reviews are an important risk assessment
                                 mechanism. Management appears to concur since more than ten
                                 reviews currently in progress were requested by CNS program
                                 officials.

                                 Final reports were issued for :

                                 National Assoc. Of Child Care; Report Number 95-01
                                 Magic Me, Inc.; Report Number 95-07
                                 ASPIRA Inc. ; Report Number 95-08
                                 Public Education Network; Report Number 95-09
                                 Neighborhood Green Corps; Report Number 95-10
                                 Association of Farm Workers Opportunity Programs;
                                      Report Number 95-1 1

                                 Work in progress includes reviews of
                                    Local Initiatives Support Corporation
                                    Woodrow Wilson National Fellowship
                                    Youth Build, USA
                                    National Aids Fund (NCAP)

                                 In addition, the OIG contracted with independent public
                                 accountingfimfor reviews of 13 AmeriCorps grantees. The OZG
                                 expects to receive final reports for these reviews during the 1st half
                                 of FY 96.
     Proposed in                                                                                           Questioned
FY 1995 Budget Request                                    Accomplished                                       Costs


 Perform audits of grants or   Final Reports have been issued for:
 contracts including those
 where noncompliance is        American Institute for Public Service; Report Number 95-04
 suspected.                    Multi-County Action Against Poverty; Report Number 95-16
                               City Year of Boston; Report Number 95-02
                               Acorn Housing Corporation; Report Number 95-17
                               Truth or Consequences Housing Authority;
                                     Report Number 95-15

                               Work in progress includes:

                               Arizona-Mexico Commission: Border Volunteer Corps, and
                               eight audits to be performed by independent accounting firms
                               (included among them is a final "close-out" audit of the Acorn
                               Housing Corporation grant which was terminated as of 9/1/95).




                               * City Year's original questioned costs were $1,915,594. However, CNS
                               management and OIG, working as a joint team, accepted an alterative
                               methodology to doocument certain personnel-related costs, developed by
                               City Year and audited by its independent accountants, to support salaries
                               and benefits charged to the grant; thereby reducing the questioned costs.
                               City Year has agreed to remit $250,000 to resolve the questioned costs,
                               interest earned on Federal funds and the issue of reprogramming excess
                               educational benefits.
     Proposed in                                                                                  Questioned
FY 1995 Budget Request                               Accomplished                                   Costs


 Conduct investigations as   We began FY 95 with 2 previously-opened investigative actions.
 needed and operate the      During FY 95 we opened 28 investigative actions and closed 14,
 Hotline.                    leaving 16 actions pending at the end of the fiscal year. Two
                             criminal investigations were referred for Federal prosecution
                             during the year; both were declined and the matters were referred
                             to Corporation management for administrative resolution. Three
                             additional investigative matters were also referred to management
                             for administrative resolution. One criminal action was referred to
                             the U.S. Postal Service inasmuch as we lacked investigative
                             jurisdiction to pursue the matter. We received 79 Hotline calls
                             during FY 95, resolving the majority upon receipt or shortly
                             thereafter.

                             Our most significant investigation during FY 95 involved the
                             Corporation's $945 thousand grant to ACORN Housing
                             Corporation (AHC) and was initiated as a result of a Hotline call.
                             We found evidence that AHC had violated provisions of the
                             National and Community Service Act, the Corporation's
                             regulations, and the ArneriCorps grant agreement prohibiting AHC
                             from using ArneriCorps positions to benefit advocacy
                             organizations. As a result of our findings, the Corporation and
                             AHC mutually agreed to terminate the grant.
     Proposed in                                                                                       Questioned
FY 1995 Budget Request                                  Accomplished                                     Costs


 Review Single Audit Act      We processed 683 reports; of these, four contained findings
 reports for CNS' grantees.   relevant to CNS grantees.



 Review of Proposed           We reviewed less than ten proposed management decisions. At
 Management Decisions.        9130195, there were seven audits with overdue management
                              decisions.



 Maintain training for        We assessed training levels throughout the Office, established
 auditors to meet             training requirements, and made them a part of each auditor's
 government auditing          annual performance plan. As a result, all auditors meet the
 standards.                   training requirements of GAO's Government Auditing Standards.

                              Further, the Assistant IG for Investigations established a training
                              policy under which our investigators have been sent to FLETC and
                              receive other training to improve their skills.



 Maintain up-to-date          All staff have received training in software applications to allow
 technical tools and          them to increase their appropriate use of CNS' and OIG software.
 continue to increase
 efficiency with training     In addition, we purchased "state of the art" software applications
 and experience.              for audit, investigation, and research use, developed new and more
                              efficient databases for analysis in support of audit and investigative
                              evidence, and developed more efficient databases for reporting
                              OIG statistics.
                   Corporation for National Service
                     Office of Inspector General
                Summary of Obligations and Expenditures
                   For the Fiscal Year Ended 1995



Salaries and Benefits
Travel
Contracted Audit Services:
    CNS Financial Statements            $ 432,414

    Other Audits and Reviews               354.674   *
Training
Supplies
Furniture and EDP Equipment
Other Office Support


     Total Obligations and Expenditures




*     Most of this balance represents the costs of audits and reviews of CNS'
AnleriCorps grants. ArneriCorps grants are awarded during the final quarter
 of each3scal year; consequently audits and reviews of single year grant activity
 "overlap" or continue into the following fiscal year. OIG expects to receive
final reports for these audits within the first halfof FY 1996.
FRAUD, WASTE, AND ABUSE
                    HOTLINE
                 1-800-452-8210
                Toll-Free, 24 Hours a Day

  INFORMATION IS CONFIDENTIAL

For general information or to request this report in an
                  alternate format
                       write:


             Office of Inspector General
              Corporation for National
               and Community Service
             1201 New York Avenue, NW
               Washington, DC 20525

                        or call:

                (202) 606-5000 Ext: 390


                                                          -
                                                          -
